FOR IMMEDIATE RELEASE                                                      August 29, 2013
Media Contact: (202-565-3908)

           Mexican Refrigeration Company Owner Sentenced to Probation
         for Scheme to Defraud the Export-Import Bank of the United States

WASHINGTON, DC – The Office of Inspector General (OIG) for the Export-Import Bank of
the United States (Ex-Im Bank) announced that Judge Kathleen Cardone, U.S. District Court
in El Paso, TX, sentenced Alexis Papatheodorou-Schmill to two-years’ probation for his role
in a scheme to defraud Ex-Im Bank of approximately $649,000.
Papatheodorou pleaded guilty on June 16, 2010, to one count of conspiracy to commit wire
fraud and one count of wire fraud. In addition to probation, Papatheodorou was ordered to
pay $527,378 in restitution and $553,148 in forfeiture.
According to court documents, Papatheodorou, a Mexican citizen residing in Ciudad Juarez,
Mexico, was the owner of a refrigeration company. Papatheodorou admitted that from
October 2006 until February 2009, he was involved with other co-conspirators in obtaining
a loan from a private lending bank, which was guaranteed by Ex-Im Bank. Papatheodorou
admitted that he and others created fraudulent shipping documents, false invoices, false
bills of lading, and other documents indicating equipment had been exported to Mexico and
purchased by Papatheodorou. Because of the fraud, Papatheodorou’s loan defaulted
causing Ex-Im Bank to pay a claim to the lending bank in the amount of $553,148.
The Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s Office,
Western District of Texas, El Paso Division prosecuted the case. Ex-Im Bank OIG;
Homeland Security Investigations in El Paso, TX; Internal Revenue Service-Criminal
Investigations in Washington, D.C.; and the U.S. Postal Inspections Service in Washington,
D.C. investigated the case.
Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs by
filling gaps in private export financing. Ex-Im Bank provides a variety of financing
mechanisms, including working capital guarantees, export-credit insurance, and financing
to help foreign buyers purchase U.S. goods and services.
Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or regulations,
fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of authority
connected with Ex-Im Bank's programs and operations. Additional information about the
OIG can be found at www.exim.gov/oig. Complaints and reports of waste, fraud, and abuse
related to Ex-Im Bank programs and operations can be reported to the OIG hotline at 888-
OIG-EXIM (888-644-3946) or via email at IGhotline@exim.gov.

                                            ###



                      811 Vermont Avenue, NW Washington, D.C. 20571
